es

No.

In the

filed
JUL 1 0 2021

Supreme Court of the United Slates

§£aS§!c™uR?usK
Ashley Y.(Yoo Hyang) Kim,
Pro Se Petitioner,

v.

Dr. Huong Tran, M.D.,
Psycho-Pharmacologist, Mary Ellen Smith, N.P.,
and Boston Medical Center,
Respondents,

On Petition For WRIT OF CERTIORARI TO THE
SUPREME COURT OF THE UNITED STATES

PETITION FOR A WRIT OF CERTIORARI
(A Corrected Version September 19, 2021)

Ashley Y.(Yoo Hyang) Kim
Pro Se Petitioner
53 Lawn Street Apt. #4
Cambridge, MA 02138
Thankyouagain@hotmail.com
(617) 229-9178

received
SEP 2 7 2021

IG^cSigP'

QUESTIONS PRESENTED
Unlike the other case's Trial Court, such as Commissioner, Alabama
Department of Corrections, Petitioner vs. Matthew Reeves, Respondent's
case, the Middlesex Superior Court and the other higher Courts, could have
ordered or summoned such Police or Federal agency and related laboratory
locations to see what was inside of my elderly mother's renewed U.S. Passport,
but in order to let me, the Pro Se Petitioner, Ashley Y.(Yoo Hyang) Kim, to
prove my case, for the Middlesex Superior Court and all other higher Courts,
But nothing was done about it.
The questions presented are*
1.
With due respect, when the very First Complaint was being dismissed,
was it properly dismissed without asking the Pro Se Plaintiff, Ashley Y. Kim,
then, about how she was not given any urgent and/or no alternative treatments,
on May 15, 2018, by the Respondent, Dr. Huong Tran, when she opened this
priority mail for her elderly mother, as she was not able to stand even with 2
different walking canes, would keep vomit, being overly nauseous, just feeling
very weak and uncomfortable, but as being the main interpreter for the Pro Se
Petitioner's elderly mother, at the 3rd best hospital in the U.S. and the World,
she is learning that there are medications to cure these types of deadly
situations... and when going to other hospitals, they are keep asking for my
elderly mother's preventing cancer cells from her entire body treatments, or
for any other urgent pain, she should always go to an Emergency Center, but
the question remains, why didn't the Respondent, Dr. Huong Tran, did not
forward the Pro Se Petitioner, Ashley Y.(Yoo Hyang) Kim, to an Emergency
Center on May 15, 2018? (App. C. 7a)
2.
Then, instead of providing any urgent treatments, by Dr. Huong Tran,
on May 15, 2018, and even after, Dr. Huong Tran, decided to treat this
incident as a mental/behavioral area, where all along, she said, she wanted
to hook up the Pro Se Petitioner, Ashley Y.(Yoo Hyang) Kim, to obtain a
$1,000, on a monthly basis from the Social Security and Disability Center,
in order to keep fight with the Cambridge Housing Authority, just after
meeting her colleague, another Respondent, Psycho-Pharmacologist, Mary
Ellen Smith, but Dr. Huong Tran, the Respondent, never ever mentioned
how she will label me as someone who is diagnosed with a Chronic Paranoid
Schizophrenia, or has that status, with 60 pages of wrongfully created
damaged mental/behavioral medical records... Ever since July 2018, the
Pro Se Petitioner, Ashley Y.(Yoo Hyang) Kim, requested all Courts in the

S

Massachusetts, that she wanted these wrongfully created mental/behavioral
medical records, to get fixed, deleted, or get amended, however, all Courts
in Massachusetts, have Dismissed with Prejudice, of this request, when it
will not cost anything for the Respondents, when that is allowed.
3.
Therefore, as everybody and the World have turn their backs on the
the Pro Se Petitioner, Ashley Y.(Yoo Hyang) Kim... Could your most
Honorable and most Genuine Supreme Court, would please make a
difference in regards to the Pro Se Petitioner, Ashley Y.(Yoo Hyang) Kim's
request or wish?
This particular case was already dismissed with Prejudice against the
Pro Se Petitioner, Ashley Y.(Yoo Hyang) Kim, by the very initial Honorable
Judge, Christopher BarrySmith, at the Middlesex Superior Court in Woburn,
MA, a way before the Court Hearing with this newly arrived Honorable Judge,
Kenneth J. Fishman on January 22, 2019. On that Court Hearing, the
Honorable Judge, Kenneth J. Fishman stated the following“So, if I understand her [the Pro Se Petitioner, Ashley Y. Kim's]
complaint, it's basically saying that she was wrongfully diagnosed
by at least some of the Defendants; and that they created records
with this wrongful [Chronic Paranoid Schizophrenia] diagnosis.
And that those - ■ she is affected by the creation of these records,
both emotionally and maybe in some other way. Why Just
accept those facts for the purposes if this is true, why couldn't
there be a cause of action based on a wrongful diagnosis and those
kind of consequences? (App. D. lla-12a.)
The Pro Se Petitioner, Ashley Y.(Yoo Hyang) Kim, always asks, is there God?
(App. E. 42a-43a) If so, why would I, as the Pro Se Petitioner, Ashley Y.(Yoo
Hyang) Kim, years back, getting portable heaters for myself and this 2 doors
away elderly tenant, Elaine Capriti... and even though when she promised
me that she will live nearly 130 years, but she became ill in March 2018...
And to wish her for her fast recovery, on April 29, 2018,1 got her a mini
flower plant... but the next day, I get this USPS Priority renewed U.S.
Passport for my elderly mother and this awful and deadly tragic occurred.
The Pro Se Petitioner, Ashley Y.(Yoo Hyang) Kim, is extremely unfortunate to
be not born as these very attractive Latino migrant workers and those who
would cross the U.S. Borders for their better future with another beautiful
Haitians and Afghanistan refugees, as if so, the Pro Se Petitioner, Ashley
Y.(Yoo Hyang) Kim, would not have suffered this much to survive, in the
United States, as being this ugly Asian...

9 »

II

TABLE OF CONTENTS

QUESTION PRESENTED

l

TABLE OF AUTHORITIES

v

STATEMENT OF JURISDICTION.

1

INTRODUCTION.

3

STATEMENT.

7

A. Final Decision at the Middlesex Superior Court in Woburn, MA
B. Final Decision at the Appeals Court in Boston, MA
C. Final Decision at the Supreme Judicial Court in Boston, MA
D. Please reverse the final decision and at least fix or amend
the Pro Se Petitioner, Ashley Y. (Yoo Hyang) Kim's Mental &
Behavioral Medical Records at the Boston Medical Center
REASONS FOR GRANTING THE PETITION
CONCLUSION

, 13
14

APPENDIX
APPENDIX A

Supreme Judicial Court for the Commonwealth of
Massachusetts - NOTICE OF DENIAL OF APPLICATION
FOR FURTHER APPELLATE REVIEW
(February 12, 2021)
la

APPENDIX Al- JUDGMENT ON MOTION TO DISMISS FROMMiddlesex County Superior Court - Woburn, MA
Judge Against the Following Plaintiffs)'
Kim, Ashley Y. (Yoo Hyang) - Dated-(Feb. 1,2019)
signed by the Asst. Clerk, Arthur DeGuglielmo......

s

lal

APPENDIX

APPENDIX

B

C

APPENDIX D

APPENDIX E

COMMONWEALTH OF MASSACHUSETTS
APPEALS COURT - MEMORANDUM AND ORDER
PUR SUANT TO RULE 1:28
(April 21, 2020)...................................................................

2a

COMMENWEALTH OF MASSACHUSETTS
MIDDLESEX SUPERIOR COURT HEARING WITH
NEWLY ARRIVED HONORABLE JUDGE, KENNETH J.
FISHMAN, where, very unfortunately, this case was
already Dismissed with Prejudice, by the very first initial
HONORABLE JUDGE,
CHRISTOPHER K. BARRY-SMITH, before this Court
Hearing with the newly arrived, HONORABLE JUDGE,
KENNETH J. FISHMAN, on January 22, 2019. These
pages are this particular Court Hearing's Transcript
7a
TRIAL COURT OF MASSACHUSETTS - MIDDLESEX
COUNTY SUPERIOR COURT - WOBURN - ORDER
(September 10, 2018)........................................................

8a

UNITED STATES POSTAL SERVICE OFFICE OF
INSPECTOR GENERAL ONLINE COMPLAINT FILED
ON FEBRUARY 5, 2021, regarding, Destruction of mail
by Postal employees or contractors and our delivery
packages, given to another people & asked about where
to inquire about what was inside of the Pro Se Petitioner’s
and elderly mom's renewed U.S. Passport
34a

iV

TABLE OF AUTHORITIES
CASES
Commissioner, Alabama Department of Corrections, Petitioner v. Mattew Reeves,
Respondent, On Petition For Writ Of Certiorari To The United States Court Of Appeals
For The Eleventh Circuit, (February 5, 2021)................................................................. 1
Deepa, Soni, M.D., Plaintiff v. Boston Medical Center., Corp., et al.,
Defendants Civil Action No. 08-12028-JGD United States District Court,
D. Massachusetts 683 F. Supp. 2D 74 (2009)............................................

2

Dr. Susan O’Horo, M.D. vs. Boston Medical Center, et al., No. 1:20-CV-12290,
United States District Courts, (December 28, 2020).....................................

2

Meagan Fitzpatrick v. Wendy's Old Fashioned Hamburgers Of New York, Inc.,
and JBS Souderton, Inc., (Application For Leave To Obtain Further Appellate
Review For The Defendant-Appellees, Wendy's Old Fashioned Hamburgers
Of New York, Inc., and JBS Souderton, Inc.)....................................................

12

Nalubega v. Cambridge Housing Authority, No. 1:2012cv 10124 - Document 49
(D. Mass. 2013)................................................................................................

8

Rodriguez vs. Cambridge Housing Authority, 443 Mass. 697, 823 N.E. 2D
1249 (2005).............................................................................................

8

V

OTHER AUTHORITIES

“Court papers- Woman wrote 'give up' in ricin note to Trump” byMichael Balsamo and Eric Tucker apnews.com,
September 22, 2020............................................................................

12

“Criminal charges brought in coronavirus outbreak that killed
dozens at Massachusetts veterans home” by Dan Lamothe, The
Washington Post, September 25, 2020...........................................

9

“Dog narrowly escapes death row, smothers new foster parent in
kisses” by Gabrielle Fonrouge nypost.com, November 13, 2020...

5

Film by “Paving the Way” about Human Trafficking on
YouTube.com......................................................................

6

“Inside the real-life and 'secret experiments' that inspired 'Stranger
Things’ ” by Dana Kennedy nypost.com, November 13, 2020
9
“MEDICATING NORMAL IS A GROUNDBREAKING NEW
DOCUMENTARY EXPOSING THE DANGERS OF PSYCHIATRIC
DRUGS, INTENDED TO IGNITE ALONG OVERDUE COMMUNITY
CONVERSATION ABOUT HOW WE SUPPORT PEOPLE IN
DISTRESS” DOCUMENTARY TRAILER ON
WWW.MINDFREEDOM.ORG
4
“New Documentaries in Our Backyard Uncovers Sex Trafficking in
Brooklyn / BK Live” on YouTube.com
9
“NYC emergency doctor dies by suicide, underscoring a secondary
danger of the pandemic” By Marisa Lati and Kim Bellware,
The Washington Post, April 28, 2020................................................ 11
“OAW Uncovering World's Largest Human and Organ Trafficking
Operation in Seattle, WA” first appeared onYouTube.com on
August 16, 2018................................................................................... 9
“Pandemic eviction moratorium near the end, with officials citing
efforts to help the at-risk” By Sue Reinert, Cambridge Day,
Tuesday, June 8, 2021......................................................................... 7

Vi

“Russian Agents Trailed Opposition Leader Navalny Before Poisoning,
Report Finds” www.npr.org December 16, 2020
12
“Sacrifice the old to help the economy? Texas official's remark prompts
backlash,” Los Angeles Times, March 24, 2020
11
“The Wolverine Watchmen plot to kidnap Michigan Gov. Whitmer also
included a plan to burn down the state Capitol building, officials say”
by Kelly McLaughlin, Yahoo.com, November 13, 2020...
5
“29 Dead at One Nursing Home From the Virus. Or More. No One Will
Say. • What is happening inside a Queens nursing home hit by the
outbreak? Relatives of residents said there was a disturbing lack of
information.” by John Leland, Amy Harris and Tracey Tulley, The
New York Times, April 16, 2020
9
“WHISTLEBLOWER, PHARMACOLOGIST AND FORMER FDA
SCIENTIST, RON KAVANAH EXPOSES CORRUPTION WITHIN THE
FDA IN APPROVING HARMFUL PSYCH DRUGS THAT HAVE LITTLE
OR NO BENEFIT. CONTACT THE SENATE TO DEMAND AN
INVESTIGATION TODAY!”
WWW.MINDFREEDOM.ORG
10
worldometers.info/coronavirus/country/us/

8

'You Have to Pay With Your Body'- The Hidden Nightmare of Sexual
Violence on the Border,' By Manny Fernandez, The New York Times,
March 3, 2019
9

vri

STATEMENT OF JURISDICTION
It's always the Supreme Court of the United States that has this
Jurisdiction, of this Pro Se Petitioner, Ashley Y.(Yoo Hyang) Kim's case as my
previously presented claims arise under the laws of the United States.
This particular Civil Case was first filed or got started at the Middlesex
Superior Court, in state of Massachusetts. (App. C. 7a) After getting dismissed
with Prejudice (App. Al. lal), it was to be re*determined at the next higher level,
at the Appeals Court. (App. B. 2a*6a)
Unfortunately, the final decision was to stay the same way as before...
and then, when moving on to the next higher State's Supreme Judicial Court.
that's when this case's Application for Further Appellate Review was DENIED.
(App. A. la) Now, while this case had started at the Middlesex Superior Court
and later was still pending at the Massachusetts State Supreme Judicial Court...
because of the fact that various locations, such Attorney General's Office in
Massachusetts... stated, they never heard such cases like the Pro Se Petitioner,
Ashley Y.(Yoo Hyang) Kim, because... they said, it looks as a crime has been
committed towards me and in order to go further with my mental/behavioral
medical case, perhaps, what I needed to do was to go to a Police and/or other
investigator locations and it will be them, who will bring this case of mine as a
Criminal Case, rather than a Civil Case.
As the Pro Se Petitioner, Ashley Y.(Yoo Hyang) Kim, I have been to
several Police Stations and those that were to assist me were out of Boston, as

these particular medical related incidents took place in Boston, MA... therefore,
I was asked to go to Boston Police Stations... But then, a little did I know... As
one of this very honest attorney said, “when it comes to hospital related cases.
no matter what, all Courts will be on the side with these big hospital
institutions...” And, the respondent, Boston Medical Center must have announced
to their teams to do something negative... For instance, if I, as the Pro Se Petitioner,
Ashley Y.(Yoo Hyang) Kim would appear to all Boston Police Stations, then they
needed to scare me, the Pro Se Petitioner, Ashley Y.(Yoo Hyang) Kim, in various
ways, so that I would never bring up this case again, it is very possible, what they can
set things behind my back. I, as the Pro Se Petitioner, Ashley Y.(Yoo Hyang) Kim,
can be arrested and get locked up for just appearing at any Boston Police Stations...
Also, it seemed so obvious, where certain Boston Police Officers, seemed
as if they were informed about the Pro Se Petitioner, Ashley Y.(Yoo Hyang) Kim's
case, where they said, “Who cares? Nobody will look up your Mental/Behavioral
Records...” or some would just disappear, after telling me to wait at the lobby
and would do other assignments... Any negative scenarios set ups are possible
by the respondents as they have much more wealth and power over me... All along,
the Pro Se Petitioner, Ashley Y.(Yoo Hyang) Kim have been very afraid and worried,
when after all, it was me, who was put into this medical trap against me, that I've
never asked for... (Deepa, Soni, M.D., Plaintiff v. Boston Medical Center., Corp.,
et al., Defendants Civil Action No. 08*12028'JGD United States District Court, D.
Mass. 683 F. Supp. 2D 74 (2009), Dr. Susan O’Horo, M.D. vs. Boston Medical
Center, et al., No. 1*20*CV* 12290, United States District Court, (December 28, 2020)

2

INTRODUCTION
There are people in the World that they say they have studied so hard
from the very early age, in order to protect and save those that they love and care
very much! As just a regular person, I, the Pro Se Petitioner, Ashley Y.(Yoo Hyang)
Kim, really tried, but perhaps, I didn't try hard enough, as unexpected issues like
this case comes along in my harsh life. This particular legal case had started
back in July 2018, right after checking the Pro Se Petitioner, Ashley Y.(Yoo Hyang)
Kim's mental and behavioral records. When wanting to fix or get permission to
delete these medical records, I had these Supervisors at the Boston Medical
Center, letting me know that, it's not going to happen, so... they said, it's
preferable way that I go to the Court and have my issues get fixed. However,
we all didn't know that it would take these years... It took up our lifetime and
all along, we have been in these torturous moods, every time, when our case
would get dismissed and these awful judgments would be against us. And who
got more disappointments and heavily depressed and got extremely worried, was
the Pro Se Petitioner, Ashley Y.(Yoo Hyang) Kim's elderly mother, who has medical
health issues, due to her old age. At the same time, whenever she received
notifications from the Court or the respondent's attorneys, she would say that
her chest started to hurt, or it felt like something was speedily poking her...
But this case’s horrible results made my elderly mother get a lot of tensions
and negative stress... We just found out that I, the Pro Se Petitioner,
Ashley Y.(Yoo Hyang) Kim’s elderly mother, has a Breast Cancer where she is
scheduled to cut her one entire breast... Right now, I, as the Pro Se Petitioner,

0 CorcateA

Ashley Y.(Yoo Hyang) Kim, cannot think or just stand still, as I have this enormous
guilt that because of this case, this is what happens to my elderly mother, who
in her age already, don’t have much time to live. It’s like this heavy thunderstorm
hit me with such never ending curse. What can be worse than this... There are
no such words to describe what’s happening to us... It's like, we... at this mode,
would go to such locations and just hang onto someone's arm, whoever they may
be... and ask for their deep prayers, for us... We are just very teary as our hearts
are torn apart... and bruised all the way...
The truth is that for the past 40 years of my life, I've never had
any mental and/or behavioral issues that required for me to see any mental
health provider. But on my 3rd appointment, Dr Huong Tran, the respondent
in early April 2018, all of sudden, said that I needed that $1,000 from the Social
Security and Disability Center, in order to fight with our current Cambridge
Housing Authority! The Pro Se Petitioner, Ashley Y.(Yoo Hyang) Kim, had no
idea that this is possible set up between the Cambridge Housing Authority,
and Dr. Huong Tran, Psycho-pharmacologist, Mary Ellen Smith, and the Boston
Medical Center, in order to close up my freedom of speech and writings... It's
just that the Cambridge Housing Authority, in general, do not want any clever,
journalist type of tenants in their apartments. (MEDICATING NORMAL IS A
GROUNDBREAKING NEW DOCUMENTARY EXPOSING THE DANGERS OF
PSYCHIATRIC DRUGS, INTENDED TO IGNITE ALONG OVERDUE
COMMUNITY CONVERSATION ABOUT HOW WE SUPPORT PEOPLE IN
DISTRESS" DOCUMENTARY TRAILER ON WWW.MINDFREEDOM.ORG) In

L(fitfetAeA

fact, they prefer to get rid of any tenants, who has that proper mindset and who
can pinpoint what's wrong or right! (Dog narrowly escapes death row, smothers
new foster parent in kisses” by Gabrielle Fonrouge, nypost.com, November 13,
2020) That is why, they necessarily do not have much of Hispanic Tenants, who
are not afraid to speak the truth and show their viewpoints to the entire society.
(The Wolverine Watchmen plot to kidnap Michigan Gov. Whitmer also included
a plan to burn down the state Capitol building, officials say” by Kelly
McLaughlin, Yahoo.com, November 13, 2020)
The truth is that Dr. Huong Tran never said anything about what will
happen after meeting that Psycho-pharmacologist, Mary Ellen Smith, just once!
Dr. Huong Tran, never ever warned me that I, as the Pro Se Petitioner, Ashley
Y.(Yoo Hyang) Kim, will end up getting more than 60 pages of negative and
damaged mental and behavioral medical records that will sustain with me forever.
Also, Dr. Huong Tran, never said that she was going to say that I have or that I
am diagnosed with Chronic Paranoid Schizophrenia. This is extremely severe
mental illness that any person even murdering just one or tons of people, the
Courts will allow them to walk away, if they say that they have Chronic Paranoid
Schizophrenia, as their defense will be that, it’s not that they’ve murdered people
but it's this voice that they’ve heard in their head... This is very serious mental
condition, that has nothing to do with the Pro Se Petitioner, Ashley Y.(Yoo Hyang)
Kim. The question would be, why would Dr. Huong Tran out of nowhere, would
put the Pro Se Petitioner, Ashley Y.(Yoo Hyang) Kim, into this medical trap and

J-T Covvz&reA

made me do this Court case, since July 2018? (Film by “Paving the Way” about
Human Trafficking on YouTube.com)
One thing, I, as the Pro Se Petitioner, Ashley Y.(Yoo Hyang) Kim did
not catch right away was how Dr. Huong Tran didn’t want me to be her patient!
By the 2nd appointment, she had such a snobby and not too welcoming gestures,
and I really didn't know that she didn't like the way how I speak English
Language fast, like some sort of parrot! Dr. Huong Tran didn't appreciate my
English speaking tongue! However, since our appointments were short, I had
to speed up and speak clearly, in order for her to be that Internal Medicine ■
Family Department's - like this speaking therapist! But then, the more that
I, as the Pro Se Petitioner, Ashley Y.(Yoo Hyang) Kim, described who or what
I am all about, the more Dr. Huong Tran had this enormous jealousy internal
tensions and negative emotions towards me, but why? When she is a lot younger
than me and achieved that American medical dream, many years back, as compare
to her, I am this old grandma figure, who don't have much educational degrees
Is this mean that Dr. Huong Tran can just mess up my life and my mental and
behavioral medical records, in any way she wants to? Dr. Huong Tran said, the
only symptoms, that I, as the Pro Se Petitioner, Ashley Y. (Yoo Hyang) Kim, needed
to have is and/or are... just shake a little, be a little nervous, with some minor
paranoia and anxiety... but these types of reactions are some conditions that all
normal people have... therefore, Dr. Huong Tran lied to the Pro Se Petitioner,
Ashley Y. (Yoo Hyang) Kim, without mentioning anything about Chronic Paranoid
Schizophrenia status will be written on my mental/behavioral records...

cmts&A

STATEMENT
“As the city's eviction moratorium nears its end on June 15, the
Cambridge Housing Authority has filed seven eviction cases against
lowincome tenants in the past three weeks after months of not
filing any. At the other end of the income scale, the owner of the
North Point luxury housing development near Lechmere continues
to seek more evictions than any other Cambridge landlord, but most
are for misbehavior or some other reason that doesn't involve
missing rent payments.
... CHAexecutive director Mike Johnston has said the agency was
trying to avoid going to court at all, because even if tenants ended up
staying in their homes they would have a blot on their record that
would make it harder to find housing if they needed to move.
Asked about the recent court filings - four for nonpayment of rent
and three for other causes - Johnston said the authority has tried
to help tenants tap into state and local aid, including a new state
program aimed at supporting owners of subsidized housing. The
program, Subsidized Housing Emergency Rental Assistance, allows
landlords such as CHA to apply for money to replace some tenant
to agree to the application,” Johnston said.
A CHA social work intern “has reached out to each resident with a
delinquency numerous times to identify what problems there might
be interfering with rent payments and to offer to work with them. It
is sadly the case that some tenants do not respond to such outreach,”
Johnston said in an email...” (Please See, “Pandemic eviction '
moratorium near the end, with officials citing efforts to help the at
risk” By Sue Reinert, Cambridge Day, Tuesday, June 8, 2021)
The Pro Se Petitioner, Ashley Y.(Yoo Hyang) Kim, does not know,
exactly, where to begin, as... being in the Cambridge Housing Authority section 8
or Senior/Disabled Housing meant... as the Cambridge Housing Authority has
so much bold connections with the City of Cambridge, Cambridge Police
Department, Cambridge Fire Department, Professional Ambulance Service, and
other related public official's locations... As being their housing tenants, since
February 2009, we came to see along with others, you can be a tenant who is

7 corrected

African or Carribean looking tenants or Caucasion tenants, but the dilemma
occurs, when the Cambridge Housing Authority, wants to take away your room
so that they can give that room away to some family with young kids, as they
could pay more higher rent... and so they start to give you a lot of notices and
unnecessary housing issues when they want to just evict you, immediately,
just with any cause. And sometimes, the Cambridge Housing Authority could
cause issues with the Cambridge Police Department or even the Cambridge
Fire Department, along with the Professional Ambulance Staffs, and really
target that particular tenant, that they don't want, and observe and follow
them, to find any negative faults which can damage anyone's reputation and
their future. (Please See, Nalubega vs. Cambridge Housing Authority,
No. l-2012cvl0124 - Document 49 (D. Mass. 2013),
Rodriguez vs. Cambridge Housing Authority, 443 Mass. 697, 823 N.E.
2D 1249 (2005))
Back in August 2012 through November 2014, the Pro Se Petitioner,
Ashley Y.(Yoo Hyang) Kim, have lived at the Cambridge Housing Authority's
Senior/Disabled apartment building, and while being there... it was a complete
different atmosphere, where... even before CoronaVirus, it really was being in
a Nursing home or Senior care facility, where... when we moved in...
(worldometers.info/coronavirus/country/us/) on our floor, adult kids didn't know
that their parent had passed away, for nearly a month. Nobody knew... and it
really was being in a funeral home, as on a weekly basis, some tenant always
passed away, but some, if they didn't have anyone, then you never knew what

£ Corrects

happened to them. Therefore, these following articles, about, “Criminal
charges brought in coronavirus outbreak that killed dozens at Massachusetts
veterans home,” “Inside the real-life and 'secret experiments' that inspired
'Stranger Things,’” “New Documentaries in Our Backyard Uncovers Sex
Trafficking in Brooklyn,” “OAW Uncovering World's Largest Human and
Organ Trafficking Operation in Seattle, WA,” “29 Dead at One Nursing Home
From the Virus. Or More. No One Will Say. - What is happening inside a
Queens nursing home hit by the outbreak? Relatives of residents said there
was a disturbing lack of information,” and 'You Have to Pay With Your Body'The Hidden Nightmare of Sexual Violence on the Border,' these are some
situations that were already introduced to the Tenants that have lived in the
Cambridge Housing Authority's both Senior/Disabled and Family Apartments...
However, during several speaking therapy sessions with Dr. Huong Tran
when you start to mention things as our back door's mini lights being turned
off, without any warnings, during Northeaster Storm in February 2018 and
March 2018... at the same time, all tall outside beam lights are completely off,
for the next 3 weeks... it got so many tenants worried, as they arrived to the
main Cambridge Housing Authority's Planning and Development meetings,
during April 2018, these younger male tenants started to question to Directors
and Staffs, “Why are you keep turning off these beam lights for weeks, when
we can't walk down to the parking area? It's so dark, you can't get to your own
door, and it's dangerous...” “We have asked our management office to turn on
outside and internal lights, but they don't turn it on... It's too dark, you can't
see anything, why you guys turning off these lights at night...?” and there are

more concerns. But, when you mention these true situations, living in section 8
housing area, very carelessly, Dr. Huong Tran, does not really understand, as
she never lived in these types of governmental subsidized apartments,
therefore... Dr. Huong Tran thinks that perhaps, I, as the Pro Se Petitioner,
Ashley Y.(Yoo Hyang) Kim, need to be on some paranoia and anxiety decreasing
pills, when that's not the case. This website called, “www.mindfreedom.org,”
talks about, “Whistleblower, Pharmacologist and former FDA scientist, Ron
Kavanah exposes corruption within the FDA in approving harmful psych drugs
that have little or no benefit. Contact the senate to demand an investigation
today!” They educate you on how hospitals partnering up with these
pharmaceutical industries, making so many patients to intake drugs for all
sorts of purposes... They would constantly recommend medications for all areas,
not because they have serious mentally related symptoms, but to sell drugs and
make tons of money...
And that’s what Dr. Huong Tran did... she said, I as the Pro Se
Petitioner, Ashley Y.(Yoo Hyang) Kim, needed to take medications but she never
explained what it was for, but said, “Who cares what people think, you need
that $1,000 Social Security Disability monthly benefits... You will have the
money, and that’s all it matters...” But I am heavily allergic to a lot of chemicals
and all types of preservatives in those food ingredients, therefore, I must be
extra careful... But Dr. Huong Tran does not care about that at all. She did
not care, whether, how she was creating these mental/behavioral medical
records are hurtful and harming me, in various ways.

/0

Cowtc^eA

A. Final Decision at the Middlesex Superior Court in Woburn, MA
On July 2018, when submitting my First Complaint to the
Middlesex Superior Court in Woburn, MA, this obviously was before the
CoronaVirus timing, therefore, not many were aware of that historical
moment, where during the year of 2018... so many Seniors who were on
those Social Security Income Welfare and Medicare were negatively
impacted... that idea of “Sacrifice the old to help the economy? Texas official's
remark prompts backlash,” and through that concept, the Pro Se Petitioner,
Ashley Y.(Yoo Hyang) Kim, was fatally poisoned, when opening a renewal
U.S. Passport for my elderly mother, on April 30, 2018. After CoronaVirus
occurred, there were statements in the media that, “If you are a medical doctor,
the more you kill CoronaVirus Patients, will be rewarded and get more pay...”
That type of statements was on the Newspaper, at the same time you heard
about, “NYC emergency doctor dies by suicide, underscoring a secondary danger
of the pandemic.”
The Pro Se Petitioner, Ashley Y.(Yoo Hyang) Kim, pretty much died
after opening that renewal U.S. Passport for my elderly mother, but Dr. Huong
Tran, never ever gave me any type of urgent or alternative treatments to make
me gain my energy back and fully recover. Therefore, I almost didn't make it,
and the Middlesex Superior Court in Woburn knew about this, but rather...
they just passed this issue and didn’t summon such court related laboratory
locations to examine, what was inside of that renewal U.S. Passport for my

II

CoWeeted

elderly mother. I would have paid those laboratory fees out of my own pocket, but
eventually, the Appeals Court and the Supreme Judicial Court in Boston, also
denied my case. (Meagan Fitzpatrick v. Wendy’s Old Fashioned Hamburgers Of
New York, Inc., and JBS Souderton, Inc., (Application For Leave To Obtain Further
Appellate Review For The Defendant-Appellees, Wendy’s Old Fashioned
Hamburgers Of New York, Inc., and JBS Souderton, Inc.)
If these renewal U.S. Passport for my elderly mother situation happens
to the Pro Se Petitioner, Ashley Y. (Yoo Hyang) Kim, nobody really took it seriously,
however, articles like, “Court papers: Woman wrote 'give up' in ricin note to
Trump,” “Russian Agents Trailed Opposition Leader Navalny Before Poisoning
Report Finds,” ... people start to recognize them, but not the Pro Se Petitioner,
Ashley Y.(Yoo Hyang) Kim's situation.
It is the Pro Se Petitioner, Ashley Y.(Yoo Hyang) Kim’s only hope
that your most highest and Honorable and respectable U.S. Supreme Court
would reconsider, reversing my previous decision from all Courts in
Massachusetts, and please allow for the Pro Se Petitioner, Ashley Y.(Yoo
Hyang) Kim's mental/behavioral medical records to get fixed or get amended...
So that I can barely survived in this United States as there are high Anti-Asian
Actions, everywhere...

/2 coweeted

REASONS FOR GRANTING THE PETITION
Up until this case was dismissed from the Middlesex Superior
Court in Woburn, MA, the Pro Se Petitioner, Ashley Y.(Yoo Hyang) Kim, had
discussed these issues with those diaha-lawyer attorneys and other pro bono
lawyers. And one of this pro bono lawyer said, “Ashley, there must be a lot of
patients with this Chronic Paranoid Schizophrenia and other mental issues
at Boston Medical Center, in order for them to hook them up to get that $1,000
Social Security and Disability Benefits, on a monthly basis. The difference is
that they are okay with getting that $1,000 monthly under that mentally illness
title, but you are not, because you want to get socially accepted and fit into
stable working society...” The reason why your most Superior and Honorable
and respectable Supreme Court of the United States, should and must grant
this Petition is that... because, it isn’t fair, when all entire Courts of the United
States takes the side of the big hospital and rich doctor’s side, even when they
have damaged the only proper mental/behavioral record, there was. People like
the Pro Se Petitioner, Ashley Y.(Yoo Hyang) Kim, does not have anything but
just clean records, therefore, having an extra clean mental/behavioral medical
records are mandatory, especially, when I am this unwanted Asian, that all
steps down on. Also, there must be such regulations for all public official's
departments, to take in such poison or chemical substance contained mails,
and examine while providing the true results... otherwise, when people like
the Pro Se Petitioner, Ashley Y.(Yoo Hyang) Kim, experienced, what occurred

13 COWe-c-[eA

to me, who in the society will prove what occurred? Nobody... even when you
pay your own laboratory and exam fees... Therefore, this is where your most
superior and Honorable and respectable Supreme Court of United States needs
to set those public or private locations, who can further assist general publics,
when receiving poisonous mails... and make sure that all hospitals and medical
providers, take out these entire poison or chemical substances from someone's
entire body, when exact incident happened to them... including urgent
medications and etc., otherwise, what will happen is that, the Pro Se
Petitioner, Ashley Y.(Yoo Hyang) Kim's eye sights had been tragically ruined.
and these damaged and suffering pain will be life long, never fully recovered...

CONCLUSION
For the reasons above, the Pro Se Petitioner, Ashley Y.(Yoo Hyang) Kim
deeply wishes and prays that this petition for a writ of certiorari would and should
be granted, as too many times, my case has been denied. Therefore, please do
not give up on me but please give me another chance. Thank you always for
allowing me to come all the way to the highest Honorable Court of all...

Respectfully submitted,

itXPro Se Petitioner, Asmey Y(Yoo Hyang) Kim
53 Lawn Street Apt. #4
Cambridge, MA 02138
Thankyouagain@hotmail.com
(617) 229-9178
Dated: September 20, 2021

|

CovsecAeA

